<html>
<title> - MARKUP OF H.R. 5493, H.R. 5711, H.R. 5681, H.R. 5682, H.R. 5717, AND TWO COMMITTEE RESOLUTIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 MARKUP OF H.R. 5493, H.R. 5711, H.R. 5681, H.R. 5682, H.R. 5717, AND 
                       TWO COMMITTEE RESOLUTIONS

=======================================================================

                                MEETING

                               before the
                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                 Held in Washington, DC, July 14, 2010

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
58-123                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              DANIEL E. LUNGREN, California
Vice-Chairman                        Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                      Jaimie Fleet, Staff Director
               Victor Arnold-Bik, Minority Staff Director


 MARKUP OF H.R. 5493, H.R. 5711, H.R. 5681, H.R. 5682, H.R. 5717, AND 


                       TWO COMMITTEE RESOLUTIONS

                              ----------                              


                        WEDNESDAY, JULY 14, 2010

                          House of Representatives,
                         Committee on House Administration,
                                            Washington, DC.

    The committee met, pursuant to call, at 11:10 a.m., in room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
(chairman of the committee) presiding.
    Present: Representatives Brady, Capuano, Gonzalez, Davis of 
California, Davis of Alabama, Lungren, and Harper.
    Staff Present: Jamie Fleet, Staff Director; Khalil Abboud, 
Professional Staff; Tom Hicks, Senior Elections Counsel; Matt 
Pinkus, Professional Staff/Parliamentarian; Kyle Anderson, 
Press Director; Joe Wallace, Legislative Clerk; Shervan 
Sebastian, Legislative Assistant, Elections; Ryan Caimi, 
Intern; Victor Arnold-Bik, Minority Staff Director; Karin 
Moore, Minority Legislative Counsel; Salley Collins, Minority 
Press Secretary; and Mary Sue Englund, Minority Professional 
Staff.
    The Chairman. I would like to call the Committee on House 
Administration to order.
    The first item on the agenda today is H.R. 5682, to improve 
the operation of certain House facilities and programs, which I 
have sponsored.
    This bill would make permanent a temporary provision 
allowing the active duty Armed Forces' personnel working in the 
House office buildings as congressional liaisons to become a 
member of the House staff gym. The practice is now in place and 
is working fine, and we propose to make it permanent for the 
benefit of military personnel who might prefer to exercise here 
rather than at the Pentagon or elsewhere.
    The bill also includes a provision to eliminate unnecessary 
bookkeeping related to the House Child Care Center. The account 
currently supporting the Center is not a revolving fund, 
meaning that at the end of the year the accountants must seek 
approval and work with the Treasury to transfer unspent 
balances forward to the next year. Converting the account to a 
true revolving fund will save the House and Treasury staff time 
better spent elsewhere. The changes will have no effect on the 
Center's staff, the parents or the children.
    Finally, the bill includes two technical corrections, and I 
know of no controversy, and I urge an aye vote.
    I now recognize our new ranking member, Mr. Harper, for any 
statement that he would like to make.
    Mr. Harper. Thank you, Mr. Chairman.
    I am pleased to support this resolution providing for 
administrative provisions affecting the House.
    This resolution authorizes military liaisons to have access 
to the House staff fitness center. Given the sacrifice 
demonstrated by our Armed Forces each and every day, this seems 
a minor privilege to grant to such vital and well-deserving 
members of our society and our families.
    This resolution also establishes a revolving fund for the 
House Child Care Center and codifies certain practices related 
to the CAO's allocation of care and repair of furniture for use 
in the House of Representatives.
    These are all sensible and appropriate changes, Mr. 
Chairman, and I urge my colleagues to support them.
    Thank you.
    The Chairman. I thank the gentleman.
    Any other comments?
    The chair now lays before the committee the bill, H.R. 
5682, to improve the operations of certain facilities and 
programs of the House of Representatives, and for other 
purposes, which is before the members.
    Without objection, the bill will be considered as read and 
open to amendment at any time.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8123A.001
    
    [GRAPHIC] [TIFF OMITTED] T8123A.002
    
    [GRAPHIC] [TIFF OMITTED] T8123A.003
    
    [GRAPHIC] [TIFF OMITTED] T8123A.004
    
    The Chairman. Is there any debate? Any amendments?
    Hearing none, if there are no amendments, I move to order 
H.R. 5682 reported favorably to the House.
    The question is on the motion.
    All those in favor, signify by saying aye.
    Any opposed? No.
    The ayes have it, and the bill is ordered reported 
favorably to the House.
    The next bill is H.R. 5681, which I sponsored to improve 
certain administrative operations of the Library of Congress.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8123A.005
    
    [GRAPHIC] [TIFF OMITTED] T8123A.006
    
    [GRAPHIC] [TIFF OMITTED] T8123A.007
    
    The Chairman. The first section of the bill authorizes the 
Library of Congress to dispose of surplus or obsolete property 
through interagency transfers, trades, sales, and other 
appropriate methods. The proceeds from these transactions will 
be made available to the Library to acquire similar but 
modernized items to replace property that was sold, transferred 
or traded.
    Section 2 clarifies that the Library may use any available 
funds to pay for student loan benefits for employees regardless 
of the source of their salaries within the Library. Funds for 
student loan repayments for all employees of all Library 
service units will now be drawn from the same fund, making 
repayment easier to administer and more accessible to 
employees.
    The last section makes available certain unobligated 
balances that have expired to be appropriated to the Library 
for credit to the Employees' Compensation Fund beginning in 
fiscal year 2011.
    The chair now would like to recognize Mr. Harper for any 
opening statement.
    Mr. Harper. Thank you, Mr. Chairman.
    This is a commonsense bill to improve the administrative 
operations at the Library of Congress, and I am pleased to 
support it.
    This bill authorizes the Librarian of Congress to dispose 
of surplus or obsolete personal property and use the proceeds 
to purchase similar replacement property. At a time when 
Americans want their government to demonstrate fiscal 
responsibility, this is a prudent change.
    The bill improves the administration of the Library's 
student loan repayment program by authorizing use of the 
general salaries and expenses account for this purpose. This 
sensible change will permit the Library to centrally administer 
the program and achieve efficiencies in its operation.
    Finally, this bill will help the Library streamline the 
process for submitting required payments for workers' 
compensation claims by authorizing the Library to use expired 
appropriations for such payments. Again, this is a simple, 
commonsense adjustment in Library operations.
    Thank you, Mr. Chairman, and I urge my colleagues to 
support H.R. 5681.
    The Chairman. I thank the gentleman.
    Any other debate? Are there any amendments?
    If there are no amendments, I move to order H.R. 5681 
reported favorably to the House. The question is on the motion.
    All those in favor, signify by saying aye.
    Any opposed? No.
    The ayes have it, and the bill is ordered reported 
favorably to the House.
    The next item on the agenda is H.R. 5717, the Smithsonian 
Conservation Biology Institute Enhancement Act. This important 
legislation will upgrade the Smithsonian Institute's notable 
scientific and educational facilities and its unique animal 
conservation facility of Front Royal, Virginia.
    The legislation has three primary elements.
    The first would authorize $1 million in fiscal year 2010, 
which has already been appropriated, $1 million in fiscal year 
2011, and $3 million in later fiscal years to plan, design, and 
construct a Smithsonian facility at Front Royal, which would 
include laboratories and offices for the purpose of conducting 
research and educational programs.
    Second, it would authorize the Board of Regents to enter 
into agreements for the provision of housing and other services 
to participate in these programs at no cost to the Smithsonian. 
George Mason University, located in Northern Virginia, has 
entered into an agreement to use Virginia State revenue bonds 
to construct a dormitory and food services facility for 
students participating in the program.
    The Smithsonian has frequently entered into cooperation 
agreements with learning institutions, including universities, 
to enhance its mission, though this is the first time that 
institution will allow an outside entity to construct the 
building on property it controls. After 30 years' ownership of 
this facility, it would enhance the Smithsonian without the 
government or the Smithsonian having spent any of their own 
funds.
    Finally, the bill would authorize the Smithsonian to plan, 
design, and construct animal holding and related programs 
facilities at the site from non-Federal sources. The cost, 
which is estimated to be between $1 to $2 million, would be 
paid for by the Smithsonian private trust fund.
    Bipartisan staff in committee has been briefed and visited 
the Front Royal site last month. This legislation enhances the 
responsibility and contributions we all expect from the 
Smithsonian.
    Mr. Harper, I recognize you for any statement you may wish 
to make.
    Mr. Harper. Thank you, Mr. Chairman.
    The Smithsonian Institution is an invaluable part of our 
national heritage and our ongoing commitment to historical 
preservation and scientific advancements. I am pleased to 
discuss this legislation, sponsored by the congressional 
members of the Smithsonian Board of Regents, which will help 
further the Institution's founding mission to support and 
increase the diffusion of knowledge.
    This legislation supports the Smithsonian's important 
conservation biology work conducted at the National Zoological 
Park, located in Front Royal, Virginia, and it strengthens 
their collaborative partnership with George Mason University in 
these efforts.
    The planned renovation and construction, which leverages a 
modest Federal investment with significant non-Federal funds, 
will enhance the education and professional training programs 
currently under way.
    I am pleased to support this bill, which helps the 
Smithsonian maintain its well-deserved international reputation 
for excellence in scientific discovery and advancement and its 
continued commitment to the environment we must steward. I 
appreciate the chairman's bringing up this legislation today, 
and I urge my colleagues to support H.R. 5717.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Any other debate?
    The chair now lays before the committee the bill H.R. 5717. 
Without objection, the bill will be considered as read and open 
to amendment at any point.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8123A.008
    
    [GRAPHIC] [TIFF OMITTED] T8123A.009
    
    [GRAPHIC] [TIFF OMITTED] T8123A.010
    
    The Chairman. If there are no amendments, I move to order 
H.R. 5717 reported favorably to the House. The question is on 
the motion.
    All those in favor, signify by saying aye.
    Any opposed? No.
    The ayes have it, and the bill is ordered reported 
favorably to the House.
    The next item is Committee Resolution 111-9, which allows 
funds from the MRA to be used for a new category of advertising 
on the Internet.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8123A.011
    
    The Chairman. This is a new tool for Members who want to 
notify constituents of official events and services supported 
by the congressional offices.
    One thing all Members can agree on is they need to reach 
out to our constituents and for our constituents to reach out 
to us quickly and in an effective way. With more people relying 
on electronic media as their primary source of communication 
and information, it is necessary that our own regulations 
reflect these needs.
    I would like to thank Mr. Lungren for working with me on 
this and in a timely manner.
    Now I would like to recognize Mr. Lungren for any opening 
statement.
    Mr. Lungren. Thank you, Mr. Chairman.
    I apologize for being late. I was at another hearing, and I 
am sorry. No disrespect meant to you or my colleagues.
    As I understand, we are talking about the Franking 
Commission issue right here, and I would like to say that I 
appreciate you adding this important issue to our agenda.
    The Franking Commission is very important. A lot of people 
are not aware of it, but it is important to the House because 
the Commission does review the primary way that all Members 
communicate with their constituents.
    Having said that, I would like to take a brief moment to 
discuss the long-standing request before this committee to 
update the existing advertising regulations.
    As our constituents become increasingly reliant on various 
sources of information, we are trying to update ourselves in 
terms of being able to respond to them. It is critical that 
this committee allow Members to utilize new and emerging 
technologies that will help them communicate more effectively 
with their constituents. Unfortunately, the rules in the past 
have allowed only a limited use of this advertising and 
prohibited Members from taking full advantage of new media 
tools. So that is why I very much appreciate the fact that our 
staffs have worked together on this to draft these new 
regulations that, I hope, will be approved here today.
    I do appreciate your time and the time of all of our 
colleagues and our staffs for considering this pending request 
to help Members communicate more efficiently and effectively 
with their constituents, so I would urge adoption of the 
resolution.
    The Chairman. I thank the gentleman.
    Is there any other debate? Are there any amendments?
    Yes.
    Mr. Lungren. Mr. Chairman, if I could, I would like to 
clarify for the record that we have agreement on both sides 
that these regulations will apply to all advertisements, 
including online advertisements, and that the staffs will work 
together to reconcile any ambiguities or inconsistencies with 
regard to how these new standards are applied, including the 
committee handbook.
    The Chairman. Yes. Without a problem. Without objection.
    If there are no amendments, the question is on agreeing to 
the committee resolution.
    All those in favor, signify by saying aye.
    Any opposed? No.
    The ayes have it, and the committee resolution is agreed 
to. Without objection, a motion to reconsider is laid upon the 
table.
    The next item is Committee Resolution 111-10.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8123A.012
    
    [GRAPHIC] [TIFF OMITTED] T8123A.013
    
    [GRAPHIC] [TIFF OMITTED] T8123A.014
    
    [GRAPHIC] [TIFF OMITTED] T8123A.015
    
    [GRAPHIC] [TIFF OMITTED] T8123A.016
    
    [GRAPHIC] [TIFF OMITTED] T8123A.017
    
    [GRAPHIC] [TIFF OMITTED] T8123A.018
    
    [GRAPHIC] [TIFF OMITTED] T8123A.019
    
    [GRAPHIC] [TIFF OMITTED] T8123A.020
    
    [GRAPHIC] [TIFF OMITTED] T8123A.021
    
    The Chairman. In October, 2010, the committee, with the 
help of the Chief Administrative Officer and the Office of 
Inspector General, developed a new set of voucher documentation 
standards for processing payments from the Members 
Representational Allowance. They were designed to address the 
needs to safeguard House accounts from fraudulent activities by 
implementing stronger financial controls and greater 
transparency.
    In the past few months, the committee has heard from 
Members about how we can retain the financial accountability 
brought by the standards but make adjustments so that Members 
can better address the needs of their staffs and their 
constituents. In developing these revisions, which are 
incorporated in the committee resolution before us, I have 
worked with my friends of the minority as well as with the 
Office of the Chief Administrative Officer, the Inspector 
General, the House Chiefs of Staff Association, the Committee 
and Leadership Managers Association, and the Professional 
Administrative Managers Association. I would like to thank them 
all for their input.
    Additionally, I would also like to ask for Mr. Lungren's 
assistance in properly educating Members' offices about these 
changes in order to make their implementation as effective as 
possible.
    I now would like to recognize Mr. Lungren for an opening 
statement.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Our voucher documentation standards have needed adjustment, 
and I am very pleased to support this effort.
    Additionally, I am appreciative of the fact that our staffs 
did work together so well to address some of the substantial 
concerns raised by Members and their staffs. It seems to me if 
we have our documentation in conformity with that required by 
the IRS that ought to be sufficient, rather than going beyond 
that.
    It is my understanding that the changes we are making have 
been reviewed by the House Chief of Staff Association and that 
they are in agreement with the proposed modifications. I think 
that is important because they are the ones that have to 
actually deal with it on a day-to-day basis; and in some ways, 
without this adjustment, we were actually imposing an 
obligation that really didn't add to security or an ability to 
justify, appropriately, expenditures but, rather, made it even 
more difficult to apply that.
    I look forward to the greater efficiency, transparency, and 
accountability as we implement these changes and increase the 
productivity of this Chamber. The changes will continue to help 
us and our staffs to carry out our official duties as Members 
of Congress, but they will do so by striking an important 
balance between ensuring Member accountability without 
creating, as I say, the overly burdensome and bureaucratic 
process.
    Based on last-minute staff discussions, it is my 
understanding, Mr. Chairman, that we have language to reconcile 
any differences posed in these standards with the relevant 
committee handbooks, and I am seeking the chairman's assurance 
that the minority will be consulted prior to any of the final 
changes.
    The Chairman. Absolutely.
    Mr. Lungren. With that, I would urge adoption.
    The Chairman. I thank the gentleman.
    Is there any other debate? Are there any amendments?
    If there are no amendments, the question is on agreeing to 
the committee resolution.
    All those in favor, signify by saying aye.
    Any opposed?
    The ayes have it, and the committee resolution 111-10 is 
agreed to; and, without objection, a motion to reconsider is 
laid upon the table.
    I am told now that we need to take a brief recess, 
hopefully a very brief recess, for a moment or two; and we will 
get back together as soon as possible. Thank you.
    [Recess.]
    The Chairman. I would like to call the Committee on House 
Administration back to order again.
    The next item on the agenda is H.R. 5493, introduced by the 
delegate from the District of Columbia, Eleanor Holmes Norton. 
I would like to thank the gentlelady for being here and thank 
the gentlelady for her patience and also thank her for her hard 
work on this bill.
    This would authorize two statues representing prominent, 
historical people in the District of Columbia to be placed in 
our National Statuary Hall Collection at no cost to the Federal 
Government. The bill reflects the language of the relevant 
sections of title II of the United States Code, which created 
Statuary Hall and governs the process by which statues in the 
collection are accepted or authorized for replacement by the 
Joint Committee on Library. The JCL may order statues to be 
located anywhere in the United States Capitol building, which 
now also includes the Capitol Visitor Center. There are 
currently 100 statues in the collection.
    I want to assure members that this legislation has nothing 
whatsoever to do with the D.C. voting rights, over which our 
committee has no jurisdiction.
    The District of Columbia, our Nation's capital, has a 
unique history on our American Republic, and recognition of its 
distinguished citizens through sculptures to be displayed in 
the United States Capitol is long overdue.
    The chair would now like to recognize the ranking member 
for any opening statement.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    The Chairman. We have got a jinx.
    Mr. Lungren. Okay.
    The Chairman. You did it.
    Mr. Lungren. All right. It is working now.
    Mr. Chairman, I support a combination of this bill and 
5711, which would allow for the District of Columbia and the 
Territories all to be able to put one statue in the Capitol. 
The reason I say that--and will offer an amendment to that 
effect--is that the States of the Union have two statues here 
at the Capitol, and that is the way it has always been.
    There is a distinction between the States of the Union, the 
Territories, and the District of Columbia. One of the concerns 
I have is, despite what the chairman has suggested, that there 
are those who are attempting to circumvent the Constitution, in 
my judgment--that is, to give the District of Columbia quasi-
State status without going through the amendment process of the 
Constitution, which is the way it is set out. If you will look 
at some official Web sites, you will see even pieces of 
legislation with reference to the District of Columbia are 
couched as simply an example that the House is moving ever 
closer to passing the D.C. Voting Rights Act. There are those 
who describe any legislative action in terms of showing that 
D.C. is treated similarly to States or, alternatively, that 
D.C. is treated differently, that is, in a priority status over 
other Territories, and I just believe that is contrary to the 
Constitution.
    While this bill does not speak to that question, it, in my 
judgment, tries to show that there is an equality between the 
District of Columbia and the other States. That is why I had 
argued for some time when this issue was being brought up and 
told my staff that I would strongly support allowing the 
District of Columbia and the Territories--American Samoa, Guam, 
Puerto Rico, and the Virgin Islands--each to have a statue here 
in the Capitol. I will just say that I don't object to giving 
the District of Columbia and the Territories the opportunity to 
display a statue, but I do object to using this process as some 
suggestion that the District of Columbia be given a vote in the 
United States House of Representatives, because the 
Constitution clearly says that the House of Representatives 
shall be made up of Representatives from the States.
    We have had this argument before, and I think it is an 
important argument. I find it difficult when there are those in 
the Congress and on the courts who have no difficulty finding 
things in the Constitution that are not there, and yet when the 
Constitution is fairly clear--well, specifically clear--as to 
what the makeup of the House of Representatives ought to be, we 
somehow say, ``well, it's like that,'' ``it's similar to,'' 
``it looks like it; therefore, it ought to be done.''
    We had dealt with this issue when I was in Congress the 
first time around. I am one of those who supports the idea of 
retrocession--that is, allowing the vast bulk of the District 
of Columbia to be returned to the State of Maryland where 
people will be able to vote for both the Senators and a Member 
of the House, much as that part of the District of Columbia 
which was returned to Virginia over 100 years ago, and it has 
allowed them to participate fully. But I just think that we 
ought to combine the two bills, and I will offer an amendment 
for that purpose.
    With that, I would--I yield back the balance of my time.
    The Chairman. I thank the gentleman.
    Any other debate?
    I now would like to open the floor for any amendments. Are 
there any amendments.
    Mr. Lungren. Mr. Chairman, I have an amendment at the desk.
    The Chairman. Excuse me. The Chair needs now to lay before 
the committee the bill H.R. 5493. Without objection, the bill 
will be considered as read and is open to any amendments at any 
time.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8123A.022
    
    [GRAPHIC] [TIFF OMITTED] T8123A.023
    
    [GRAPHIC] [TIFF OMITTED] T8123A.024
    
    [GRAPHIC] [TIFF OMITTED] T8123A.025
    
    The Chairman. Now are there any amendments?
    Mr. Lungren. Mr. Chairman, I have an amendment at the desk.
    The Chairman. I recognize the gentleman and agree that the 
amendment be considered as read.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8123A.026
    
    [GRAPHIC] [TIFF OMITTED] T8123A.027
    
    [GRAPHIC] [TIFF OMITTED] T8123A.028
    
    [GRAPHIC] [TIFF OMITTED] T8123A.029
    
    The Chairman. The gentleman is recognized for 5 minutes.
    Mr. Lungren. Mr. Chairman, the amendment is 
straightforward. I tried to mention it in my opening comments 
so that we wouldn't take a lot of debate on it unnecessarily. I 
hope it will be adopted by the committee.
    It essentially combines the D.C. statue bill and the bill 
granting a statue to each of the Territories, giving both D.C. 
and the Territories one statue. This change removes any 
hesitation members might feel in voting for a piece of 
legislation that they would view as an unintended support for 
the D.C. voting rights bill.
    I hope my colleagues will support the amendment, and I will 
yield back the balance of my time.
    The Chairman. I thank the gentleman.
    Any debate on the amendment?
    I would just like to add a few things.
    I respectfully disagree with the member's amendment. There 
are significant differences between the District of Columbia 
and other Territories seeking statues.
    The 23rd Amendment to the Constitution grants the District 
of Columbia three electoral votes. The Territories of the 
United States have no electoral votes. D.C. residents, unlike 
the residents of the U.S. Territories, all have the obligation 
of United States citizenship.
    Another difference between D.C. residents and the residents 
of the Territories is that D.C. residents are treated the same 
as the residents of the other 50 States for tax purposes. In 
contrast, the United States generally does not apply its taxes 
to the Territories. Additionally, Congress treats D.C. as a 
State for purposes of Federal funding and programs.
    So I respectfully ask the members to vote ``no'' on this 
amendment.
    The question now is on the amendment.
    All those in favor, signify by saying aye.
    All those opposed, no.
    In the opinion of the chair, the noes have it, and the 
amendment is not agreed to.
    If there are no further amendments, I move that House H.R. 
5493 be reported favorably to the House.
    The question is on the motion.
    All those in favor, signify by saying aye.
    Any opposed?
    Mr. Lungren. No.
    The Chairman. In the opinion of the Chair, the ayes have 
it, and the bill is ordered reported favorably to the House.
    The next item on the agenda is H.R. 5711, which provides 
for one statue each to be placed in the National Statutory Hall 
Collection, honoring the citizens of American Territories for 
Puerto Rico, American Samoa, the Virgin Islands, Guam, and the 
Northern Mariana Islands.
    This bill, like the previous one, reflects the language of 
the relevant section of title II of the United States Code, 
which created Statutory Hall and governs the process by which 
statues in the collection are accepted or authorized for 
replacement by the Joint Committee on Library.
    The history of these five American Territories is 
oftentimes overlooked. By authorizing the placement of a statue 
in the National Statuary Hall Collection, each Territory can 
now honor a native son or daughter by providing an educational 
display to those not familiar with their histories.
    I would now like to recognize again the ranking member for 
an opening statement.
    Mr. Lungren. I thank the gentleman for recognizing me.
    It was my hope that we could combine this legislation with 
the D.C. statue bill and create some uniformity among like 
entities. I understand the gentleman's suggesting there is some 
difference among the Territories and the District of Columbia. 
I would just point out there is a difference among the 
Territories themselves, other than the District of Columbia.
    For instance, it may be a little known fact that, in 
American Samoa, if you are born in American Samoa, you are an 
American national, not an American citizen, unless you are born 
of American citizens. If you are born on a Territory of the 
United States called Swift Island, the same thing occurs. If 
you are born on Guam, you are an American citizen. If you are 
born in Puerto Rico, you are an American citizen. If you are 
born in the Virgin Islands, you are an American citizen. So we 
have made a distinction among those. Historically, we might go 
back and take a look at what that is.
    So, again, I would have hoped that we would have combined 
this legislation with the prior legislation for the reasons 
that I had indicated, but, with that, I would I yield back the 
balance of my time.
    The Chairman. I thank the gentleman.
    The chair now lays before the committee H.R. 5711, and 
without objection, the bill will be considered as read and open 
to amendment at any point.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8123A.030
    
    [GRAPHIC] [TIFF OMITTED] T8123A.031
    
    [GRAPHIC] [TIFF OMITTED] T8123A.032
    
    [GRAPHIC] [TIFF OMITTED] T8123A.033
    
    The Chairman. Is there any debate? Are there any 
amendments?
    No amendments. I move to order H.R. 5711 reported favorably 
to the House.
    The question is on the motion.
    All those in favor, signify by saying aye.
    Those opposed, no.
    According to the chair's opinion, the ayes have it, and the 
bill is ordered reported favorably to the House.
    All members will have two additional days, provided by the 
House rules, to file views. Without objection, the staff will 
be authorized to make such technical and conforming changes as 
may be required to reflect the actions of the committee.
    The committee now stands adjourned. Thank you all.
    [Whereupon, at 11:50 a.m., the committee was adjourned.]

</pre></body></html>
